No. 20-1029
CITY OF AUSTIN, TEXAS,

Petitioner,

V.

REAGAN NATIONAL ADVERTISING OF TEXAS,
INCORPORATED, ET AL.,
Respondents.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 33.1(h), I certify
that 1 copy of the foregoing Joint Amicus Brief of
Chambers of Commerce,
Business Leagues,
Environmental Organizations, and On-Premise Sign
Associations in Support of Petitioner sent via Three
Day Service to the U.S. Supreme Court, and 1 copy was sent
via Three Day Service and email to:
J. Allen Smith
Katherine L. Killingsworth
SettlePou
3333 Lee Parkway
8th Floor
Dallas, TX 75219
(214) 520-3300
asmith@settlepou.com
kkillingsworth@settlepou.com
Counsel for Respondent

And 1 copy was sent via email to the following parties
listed below per their consent:
Charles W. Thompson, Jr.

2

Amanda Kellar Karras
Counsel of Record
Erich R. Eiselt
Deanna Shahnami
International Municipal Lawyers Association
51 Monroe Street, Suite 404
Rockville, MD 20850
(202) 466-5424
akellar@imla.org
Counsel for Amici Curiae
Russ Horton
George Brothers Kincaid & Horton, L.L.P.
1100 Norwood Tower
114 West 7th St.
Austin, TX 78701
(512) 495-1400
rhorton@gbkh.com
Counsel for Respondent
This 1st Day of March, 2021.

/s/ Cooke Kelsey
Counsel of Record

